                 U.S. Department of Education
                  Office of Inspector General




               Study of Cost Issues



   Federal Family Education Loan Program



             Federal Direct Loan Program




March 1999                                      CN S13-70001
             U.S. Department of Education
              Office of Inspector General




March 1999                                  CN S13-70001
                               U.S. Department of Education
                                Office of Inspector General




    Department in its financial systems. The cost allocations that you have questioned
    reflect indirect costs that, if re-allocated, would only exert a minor impact on overall
    administrative costs.

    We are pleased that your staff plans to build upon our work as part of developing
    baseline administrative costs for the two loan programs. We understand that your office,
    as we had hoped, plans to refine these factors. You also indicated that you would
    welcome our review of the methodology you use to determine OFSA baseline figures,
    prior to their finalization. We look forward to such an opportunity.

    We appreciate the cooperation given us during our study. If we can be of further help,
    please contact us. If you have any questions about the study or related matters, please
    call me at 205-9327 or Russell Young at 205-9970.




March 1999                                                                               CN S13-70001
                                            Office of Inspector General
                                                Study of Cost Issues

Table of Contents

HIGHLIGHTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

OVERVIEW OF OBJECTIVE, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . 4
    Objective and scope of study . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
    Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

STUDY RESULTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
     Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
            Subsidy Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
            Administrative Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
     OIG’s Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
            Conclusion 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
            Conclusion 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
     Possible reasons for administrative inefficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
     Legislative mandates and accounting standard . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

OIG SUGGESTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         20
      Institute an activity-based costing system . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                20
      Institute procedures to track employees’time to program and activity . . . . . . . . . . . . .                                  21
      Develop models to predict borrower behavior, loan volume projections, and the cost
               effects of management decisions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                21
      Consider and take appropriate actions to address possible reasons for cost
               inefficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   22

Appendix A - SUBSIDY COSTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                23
      Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    23
              CRA guides cost methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   23
              Subsidy cost per loan does not represent the programs’costs . . . . . . . . . . . . . .                                 23
      Analysis of Subsidy Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           24
              Definition of Credit Reform . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               24
              Accounting for Subsidy Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                25
              The Effect of Re-estimation on Subsidy Costs . . . . . . . . . . . . . . . . . . . . . . . . .                          26
              Impact of Interest Rates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            26




March 1999                                                         i                                    CN S13-70001
                                        Office of Inspector General
                                            Study of Cost Issues


Appendix B - DATA TABLES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   29
      Table 1 - Estimated Administrative Cost FY 1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . .              29
      Table 2 - Estimated Administrative Cost FY 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . .              29
      Table 3 - Private Industry Servicing Cost . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      30
      Table 4 - Two Year Average of Administrative Cost . . . . . . . . . . . . . . . . . . . . . . . . . .                31
      Table 5 - FY 1997 Administrative Cost Per Loan . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             31
      Table 6 - FY 1996 Administrative Cost Per Loan . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             31

Appendix C - LABOR ALLOCATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

Appendix D - GRAPHIC DISPLAY - LOAN ORIGINATIONS . . . . . . . . . . . . . . . . . . . . . . .                             34
      Comparison of Dollar Amount of Loans Originated . . . . . . . . . . . . . . . . . . . . . . . . . . .                34
      Comparison of Percentage of Loans Originated . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             35
      Percentage of Loan Originations by Loan Type . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             36

Appendix E - REFERENCES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

Appendix F - OSFAP COMMENTS ON THE COST STUDY . . . . . . . . . . . . . . . . . . . . . . . . 44

Appendix G - DISTRIBUTION LIST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46




March 1999                                                   ii                                CN S13-70001
                                 Office of Inspector General
                                     Study of Cost Issues

HIGHLIGHTS
We have conducted a study of cost issues to assess their impact on the U.S. Department of
Education’s (Department) William D. Ford Direct Loan Program (FDLP) and the Federal Family
Education Loan Program (FFELP). The FDLP and FFELP provide essentially the same type of
products and may be considered one program with two different delivery systems. In accordance
with the Credit Reform Act (CRA), we categorized the Department’s costs as either subsidy or
administrative. We reviewed the Department’s costs for fiscal years 1996 and1997, along with
audits, information reports, congressional testimony, and other related documents to aid in our
understanding of issues that may impact FDLP and FFELP costs. Our study was not an audit of
either program.

The Department has limited control over subsidy costs

Subsidy costs include interest expense, default costs, interest subsidy expenses, etc., and
constitute the majority of FDLP and FFELP costs. The Department has limited control over
subsidy costs. The economy exerts the greatest influence on these costs. For example, changing
economic conditions can result in interest rate volatility that will make subsidy costs rise and fall
accordingly. Additionally, subsidy costs are subject to yearly re-estimations (recalculations of
earlier projections) which also make them fluctuate, sometimes significantly.

The Department can exercise control over administrative costs

Administrative costs are those incurred by the Department to manage the FFELP and FDLP. The
Department can largely control these costs through effective management. While the Department
can control its administrative costs, it does not know the fully allocated costs of each program
because it does not have a cost accounting system that properly allocates administrative costs
among its various financial aid programs. Accordingly, we focused primarily on identifying and
allocating FDLP and FFELP administrative costs.

OIG’s study resulted in conclusions on costs

We reached two principal conclusions. First, in any given year either FFELP or FDLP total costs
(administrative and subsidy) may be greater, given the impact of prevailing economic conditions
on subsidy costs. Since costs may be higher or lower at any one point in time, a total cost figure
for any one year does not definitively answer the question of whether the FFELP or FDLP is more
expensive.




March 1999                                        1                           CN S13-70001
                                Office of Inspector General
                                    Study of Cost Issues

Secondly, we concluded that inefficiencies likely affect the Department’s administration of the
two programs. To approximate the effect of these inefficiencies, we compared our estimate of the
Department’s cost to manage the FDLP – $17 per loan – to the average cost that we estimated
(based on US Treasury research) that large private lenders would have incurred to manage the
FDLP – $13 per loan. A significant portion of the $4 difference may be due to inefficiencies;
however, some of the difference may be due to other factors. We believe that the Department’s
inefficiencies affect its administration of the FFELP, but we were unable to estimate the extent
because no private sector entity performs comparable oversight functions like the Department
performs for the FFELP.

The cost figures are reasonable estimations based upon the Department’s available financial data
and Office of Postsecondary Education’s labor allocations. The intent of this study was to serve
as a beginning, with the expectation that the Department would refine our cost estimations as it
strives to improve its management of the two loan programs.

OIG offers its observations and suggestions

Our report identifies areas or issues that may give rise to cost inefficiencies including: a lack of
critical information necessary to make management and policy decisions; a lack of necessary
technical and contracting qualifications by certain key management and staff; and that the
Department’s systems are incompatible and lack data standards and common identifiers. Our
report also describes accounting standards and legislative mandates which require the Department
to have and maintain proper cost data for managing its programs. It does not presently have such
data.

To improve its administration of the loan programs (and the other Student Financial Assistance
programs) and to comply with accounting standards and legislative mandates, our report suggests
that the Department:

#      institute an activity-based costing system;

#      institute procedures to track employees’time to the program and activity they work on;

#      develop models to predict borrower’s behavior, loan volume projections, and the cost
       effects of management decisions; and

#      consider and take appropriate actions to address possible reasons for cost inefficiencies as
       discussed in the body of this report.



March 1999                                       2                           CN S13-70001
                                 Office of Inspector General
                                     Study of Cost Issues

BACKGROUND
Organizations call for changes

In 1991 the National Association of State Universities and Land Grant Colleges proposed a
federal direct student loan program which they believed would be less costly than the existing
Federal Family Education Loan Program (FFELP). When Congress reauthorized the Higher
Education Act (HEA) in 1992, it included legislation that created the Federal Direct Loan
Demonstration Program which was to begin on July 1, 1994. The Demonstration Program never
began because, in 1993, Congress enacted the Student Loan Reform Act (SLRA), which
mandated a transition from the FFELP to the Federal Direct Loan Program (FDLP) and also
legislated an entitlement for federal administrative costs.

In 1997 the American Association of State Colleges and Universities and the American Council
on Education (ACE) questioned whether any federal agency possesses state-of-the-art private-
sector practices that would enable it to manage the effective delivery of an annual $50 billion
financial services program. ACE recommended that Congress examine alternative organizational
forms for improved program delivery.1

Meanwhile, the Advisory Committee for Student Financial Assistance recommended that
Congress improve the delivery system of federal financial assistance programs by amending the
HEA to provide for a new Performance Based Organization (PBO).2 Congress, in its 1998 HEA
Amendments, created a discrete management unit--a PBO--responsible for managing the
operational functions supporting the Title IV programs.

Attempts made to identify savings

Direct loan program supporters and opponents have waged an ongoing argument about which
program more effectively serves students and which is more cost-efficient. Direct loan advocates
maintain that FFELP is costly and complex and that direct loans would be cheaper with savings
going to students; loan delivery and servicing would be simpler; and program oversight would be
enhanced. Direct loan opponents questioned the Department’s ability to manage the program and
whether real cost savings could be achieved. Additionally, various published studies show savings
in the FDLP, while others find FDLP more expensive.


1      Advisory Committee on Student Financial Assistance, “What Form Fits? An Analysis of Student Aid
       Organizational Innovations” Briefing Document, July 1997, p. 1.

2      Ibid.

March 1999                                          3                            CN S13-70001
                                  Office of Inspector General
                                      Study of Cost Issues

Congress, as part of the SLRA, provided funds to assess the FDLP annually. The Department
selected Macro International for the evaluation, and as a part of its contract, Macro began a cost
study: “....to benchmark the two programs at a particular point in time so that the changes in costs
over time can be put into context.” Macro stated that it was essential to have “... an accurate and
defensible allocation of administrative and contractor servicing costs between the two
Programs...”3 In 1997 the Department canceled the cost study provision of the Macro contract
while continuing all other provisions.

After the cancellation of the cost portion of the Macro contract, we began this study.

                                   __________________________


OVERVIEW OF OBJECTIVE, SCOPE, AND METHODOLOGY
Objective and scope of study

Our objective was to study and compare FDLP and FFELP cost issues. In performing this study
we followed the President’s Council on Integrity and Efficiency (PCIE) “Quality Standards for
Inspections,” dated March 1993. Our study was of costs for fiscal years1996 and 1997 and
included a review of audits, information reports, testimony, and other related documents to aid in
our understanding of issues that may impact FDLP and FFELP costs. We did not perform an
audit.

Methodology

We began this project by obtaining Macro’s (and its subcontractors’) incomplete study results,
supporting work papers, and accumulated records through fiscal year 1996, including the
following information and data for both loan programs: 1) administrative costs from the general
ledger accounts of the Department’s Primary Accounting System (PAS); 2) invoices and analysis
of major Office of Student Financial Assistance Programs (SFAP) system contracts; 3) loan data
from the National Student Loan Data System (NSLDS), and 4) cost allocation methodology.

We expanded Macro’s work to include FY 1997 costs by obtaining from the Department the
same type of data and information that Macro obtained for FY 1996. We analyzed this data
following the basic methodology that Macro established, which we expanded to include a


3      U.S. Department of Education Direct Loan Evaluation Macro International Inc. Third Annual Report on
       Cost Issues, Vol I, March 1997, p. 1.

March 1999                                          4                             CN S13-70001
                                    Office of Inspector General
                                        Study of Cost Issues

projection of FDLP administrative costs to reflect a mature program in order to more equitably
compare the loan programs.

The Credit Reform Act of 1990 (CRA) segregates loan program costs into two primary
categories: subsidy (for which the Department can only exert minimal control4); and
administrative (which the Department can largely control5). Because subsidy and administrative
costs consist of different components, we addressed subsidy and administrative costs separately.

Factors impacted our methodology

Several factors were significant enough to impact the methodology we designed for our study.

#      FDLP was only in its third and fourth years of existence during fiscal years 1996 and 1997
       so certain program costs had not reached maturity (e.g., servicing costs will rise over time
       as more borrowers enter repayment status).

       What we did--To provide an equitable cost comparison of the programs, we projected
       FDLP costs that have not yet reached maturity. Although this required that certain
       assumptions be made, FDLP and FFELP similarities provided a reasonable basis for
       making those assumptions.

                Because FDLP and FFELP loans have similar terms and conditions,6 their default
                rates are similar, and the risk categories of borrowers who receive them are also
                similar,7 we assume it is reasonable to use FFELP data to project FDLP costs.




4      The Department may exert limited influence on certain subsidy costs; for instance, to the extent that
       default reduction measures are successful default costs will decrease.
5      The Department’s control of its administrative costs is limited by certain factors. For instance, servicing
       costs will always rise as volume increases, even though the Department may limit these cost increases.
6      FFELP advocates claim that the Income Contingent Repayment Plan (ICR), found only in the FDLP,
       provides an unfair advantage to the FDLP. However, since ICR, through consolidation into the FDLP, is
       available to borrowers in several federal loan programs, we consider it to be a separate cost center, giving
       neither program an advantage. See Income Contingent Repayment: Cost Attribution and Borrower
       Studies Could Assist to Meet Objectives of Federal Financial Reporting and Program Management, ACN
       07-70002, May 1998.
7      The Congressional Research Service recognized the loan program similarities when it noted: “FFELP and
       DL provide the same loans on essentially the same terms and conditions, and may be thought of as simply
       two delivery systems for one program.” CRS, Student Loans: What is the Problem With Converting to
       the 10 Year Interest Rate Benchmark, July 25, 1997.

March 1999                                              5                               CN S13-70001
                                  Office of Inspector General
                                      Study of Cost Issues


              The Department also uses FFELP data to project FDLP costs, as illustrated by this
              comment in its FY 1997 audited financial statements: “The Department believes
              that for a given loan type (e.g., Stafford) and risk category (e.g., proprietary
              schools), the characteristics of direct loan borrowers and FFELP borrowers are
              substantially similar. Therefore, the Department has used assumptions for
              repayment, distribution, defaults, and collections that were developed using
              FFELP data to make estimates of allowances for direct loans receivable.”8 This
              statement demonstrates that the Department recognizes the program similarities,
              and has used FFELP data to project out-year FDLP subsidy costs. We used
              FFELP data to estimate administrative costs for a fully mature FDLP program
              (i.e., the percentage relationship of in-school to in-repayment loans is stable) in
              fiscal years 1996 and 1997.

              Finally, we based our assumed level of a mature FDLP on Departmental
              information. In its FY 1999 budget proposal, the Department projected that FDLP
              would sustain its current loan origination levels for the next few years--34 percent
              of all new loans originated and 35 percent of all new loan dollar volume (“all
              loans” defined as the total of all FFELP and FDLP loans). Because we believe this
              projection is reasonable,9 we assumed: 1) FDLP loan originations have reached
              maturity, which in turn means that FFELP originations have reached maturity; and
              2) FDLP percentages of total outstanding loans and default dollars will also mature
              over time and reflect the 34 and 35 percent origination percentages stated above.

#     Subsidy costs for FDLP and FFELP may vary substantially from year to year because of
      economic factors and any Congressional legislative changes. This means that subsidy
      costs for a mature (projected) FDLP are difficult to predict.

      What we did-- We considered subsidy costs separately and provided a recalculation of the
      Department’s subsidy costs for discussion purposes only.

#     The Department lacks a cost accounting system.

      What we did--We reallocated administrative costs to reflect the activities and services
      actually performed to operate each program, regardless of when billing invoices were


8     U.S. Department of Education, Annual Accountability Report Fiscal Year Ended September 30, 1997,
      “Notes to Consolidated Financial Statements, September 30, 1997,” July 21, 1998, p. 10.
9     The FDLP origination percentage varied very little between fiscal years 1996 and 1997: 32 percent in
      fiscal year 1996 and 34 percent in fiscal year 1997.

March 1999                                           6                              CN S13-70001
                                    Office of Inspector General
                                        Study of Cost Issues


       received or what funding source the Department used to pay them. We only considered
       Office of Postsecondary Education (OPE) costs or costs directly charged to OPE,
       eliminating overheads such as the Office of General Counsel and Office of Chief Financial
       Officer. We also compared the Department’s cost to administer FDLP loans to what we
       projected it would cost large lenders to administer these same loans.

       We assumed that the PAS data and OPE budget information we used is reasonably
       correct, specifically regarding correct object classes10 and program funding sources. This
       information was used to create the Department’s fiscal years 1996 and 1997 published
       financial statements.

                                     _________________________


STUDY RESULTS
Introduction

Subsidy Costs - We observed that the Department can only exert minimal control over subsidy
costs. For instance, subsidy costs are impacted by subsidy parameters set by Congress, such as
borrower and lender origination fees and lender reinsurance rates for defaulted loans.
Additionally, the economy directly impacts subsidy costs by driving interest rates which dictate
interest expenses, which is a primary subsidy cost. Further, subsidy costs are subject to yearly re-
estimations (recalculations of earlier projections) which also make them fluctuate, sometimes
significantly. (See Appendix A for a more detailed discussion of subsidy costs.) The FFELP and
FDLP subsidy cost factors are: 1) interest rates; 2) loan origination; and 3) other subsidies
(including defaults and Death, Disability, and Bankruptcies (DD& B)). FFELP subsidy costs also
include other fees, such as lender fees.

Administrative Costs - The Department’s cost to manage FDLP and FFELP contractor costs
(servicing, etc.), and its other administrative costs, are costs the Department can reasonably
control through effective management. These costs include labor, contracting costs, rent, etc.
The Department records its administrative costs based on funding source (appropriation account),
with limited allocation of overhead costs (common support cost). The Department does not
know the fully allocated costs of each program, because it does not have a cost accounting system
that properly allocates administrative costs among its various financial aid programs.


10     The Department uses object classes to identify the nature of its revenues and expenses.

March 1999                                             7                               CN S13-70001
                                   Office of Inspector General
                                       Study of Cost Issues


OIG’s Conclusions

Conclusion 1: In any given year either FFELP or FDLP total costs (administrative and
subsidy) may be greater, given the impact of prevailing economic conditions on subsidy costs.
Since costs may be higher or lower at any one point in time, a total cost figure for any one
year does not definitively answer the question of whether the FFELP or FDLP is more
expensive.

Subsidy costs have the greater impact on cost

Subsidy costs constitute the majority of both the Government’s FDLP and FFELP costs, and as
such have the greatest impact as to which program is more expensive. CRA requires that subsidy
costs be an estimation of the net present value of all future cash flows resulting from loan
originations. This entails having to predict future economic conditions that impact the cash flows
for both the current cohort year and re-estimates of prior cohort years. From one cohort year to
the next, economic predictions can be different, causing subsidy costs to vary. As such, subsidy
costs in any one year reflect both future and past costs and can vary significantly from one year to
the next.

Economic conditions determine which program has greater subsidy cost

It is not a problem to calculate a subsidy cost figure. However, it is a problem to calculate a
subsidy cost figure that fairly represents the loan programs’costs. The economic conditions
present at the time of any calculation determine which program is more expensive, not whether
one program or the other possesses characteristics that ultimately will produce cost savings.

Some argue that there are characteristics that make the FDLP cheaper. They state that since the
Department operates the FDLP, it may earn a surplus generated by the interest spread between
what the borrower pays to the Department and what the Department pays to the Treasury. If a
surplus is earned, it reduces FDLP subsidy costs.11 Given the similarities of the two programs and
the fact that the Department may retain any FDLP surplus, they assume the federal government’s
FDLP subsidy costs could be less than its FFELP subsidy costs if current economic conditions
continue.12 However, they fail to realize that any possible savings may be reduced because the



11     In the FFELP, private lenders retain any surplus earned because they, rather than the federal government,
       provide the necessary loan capital.
12     The FDLP has only been in operation a few years; therefore, a long-term study of interest costs and their
       effect on subsidy costs would be necessary to affirm this conclusion.

March 1999                                            8                               CN S13-70001
                                   Office of Inspector General
                                       Study of Cost Issues


Department’s FDLP administrative costs are greater than its FFELP administrative costs due to
additional FDLP servicing costs.13

Using total costs, either program’s costs could be greater

Consequently, if administrative costs and subsidy costs are added together, at any point in time
FFELP or FDLP total costs may be greater given prevailing economic conditions. However, even
though one program’s costs may be higher or lower at any one point in time, we do not believe
that a total cost figure for any one given year definitively answers the question of whether FFELP
or FDLP is more expensive.

                                           **********

Conclusion 2: We believe that inefficiencies likely affect the Department’s administration of
the two programs.

Our general approach

To determine if inefficiencies exist, we first determined the administrative cost of the two
programs. In order to derive a reasonable estimate of FDLP and FFELP administrative costs, we
differentiated and allocated administrative costs based on actual program resource usage.
The objective of our administrative cost allocation methodology was to allocate the Department’s
administrative costs to reasonably reflect the activities and services performed to operate the
FFELP and a mature FDLP in fiscal years 1996 and 1997. To attain this objective, we:

!      obtained accounting data from Department records;

!      distributed costs between the two programs based on actual program usage;

!      differentiated FDLP development (start-up) costs from ongoing administrative costs; and

!      increased FDLP volumes to reflect a fully mature program and projected FDLP costs
       accordingly.
We used a three-phase Cost Allocation Methodology which is described in more detail in the
sections that follow.



13     The Department only incurs FFELP servicing costs for subsidized loans while students are in school
       through subsidy payments to lenders. The Department incurs all FDLP servicing costs.

March 1999                                            9                              CN S13-70001
                                Office of Inspector General
                                    Study of Cost Issues


Phase 1: Define Administrative Cost Criteria

The relevant cost criteria we used to support our administrative cost analysis objective is
described below.

       Data Sources: The Cost Allocation Methodology utilizes FDLP and FFELP
       administrative costs as tracked by the Department’s accounting systems. We obtained
       these costs for fiscal years 1996 and 1997 through general ledger accounting records in
       the Department’s Primary Accounting System (PAS). These are the same accounts the
       Department used to create its published fiscal years 1996 and 1997 FDLP and FFELP
       financial statements.

       Cost Categories: Based on line items reported in the fiscal years 1996 and 1997 financial
       statements, we defined cost categories to organize the detailed fiscal years 1996 and 1997
       cost records into manageable subsets of data. These categories are: labor; personnel
       benefits; travel and transportation; rent, communication, and utilities; printing and
       reproduction; contract services; supplies and material; equipment, land, buildings, and
       investments; and subsidies.

       Program Costs: We separated detailed FDLP and FFELP costs into three groups or
       “buckets”: FFELP operating costs, FDLP operating costs, and FDLP development costs.

Phase 2: Collect and Analyze Fiscal Years 1996 and 1997 Cost Data--four activities

The specific procedures we used to collect and analyze cost data for each cost category varied
depending upon the nature of the costs. The following describes the four activities we performed
to collect and analyze the fiscal years 1996 and 1997 cost data.

       Activity 1 - Collect Detailed Accounting Data

       We collected fiscal years 1996 and 1997 PAS data separately for all expense accounts.
       The Department records FDLP and FFELP costs, as well as other program costs,
       separately by Internal Machine Numbers (IMNs) in its general ledger accounts. Both the
       FDLP and FFELP have unique IMNs assigned to them.

       Once we abstracted the cost data, we incorporated year-end adjustments included in the
       Department’s fiscal years 1996 and 1997 financial statements. We then allocated all OPE
       costs to the various OPE offices, and then to the OPE programs, including FDLP and
       FFELP. (We allocated direct costs to the programs based on which program benefitted

March 1999                                       10                          CN S13-70001
                              Office of Inspector General
                                  Study of Cost Issues


      from an organization’s labor; for all indirect costs we performed the allocations based on
      the labor formulas discussed in “Activity 3 - Labor Cost Analysis.”) This cost allocation
      served as our initial basis for calculating FDLP and FFELP administrative costs.

      To ensure that the Department’s FDLP and FFELP PAS data was reliable, we tracked the
      administrative cost data to the Department’s published fiscal years 1996 and 1997
      financial statements. While we noted minor differences, the impact was insignificant.

      Activity 2 - Understand the Department’s “Allocation” Methodologies

      The objectives of this activity were to gain an understanding of how the Department
      allocated administrative costs to the programs and determine what cost variables “drive”
      the various cost categories in order to provide a basis to reallocate PAS costs for the
      FDLP and FFELP to the proper group--FFELP operating costs, FDLP operating costs,
      and FDLP development costs.

             The Department’s Cost Allocations: Because the Department lacks a cost or
             management accounting system, it distributes costs based on the funding account
             from which it pays expenses. This practice is not a real allocation of costs because
             it is not based on which program is actually requiring resources; rather, it is simply
             a reiteration of what was originally planned through the budget exercise. After
             reviewing PAS data, we made major cost re-allocations from the FDLP to the
             FFELP to accurately reflect the true operating costs of both programs.

             The cost allocations that the Department made to the FDLP in PAS for
             administrative costs incurred by FFELP are explained by Section 458 of the Higher
             Education Act, which allows the Department to use money appropriated to the
             FDLP for the FFELP. As a result, the Department uses funds under the FDLP
             budget “umbrella” to pay for certain FFELP costs.

             Cost Drivers: To properly allocate program costs it is necessary to understand
             what variables “drive” the various cost categories. For example, the number of
             loans processed may determine the amount a contractor charges the Department
             each month for its services. These variables are called cost drivers and are integral
             to the cost analysis.

             We found that two cost variables drive the majority of the FDLP and FFELP
             administrative costs: (1) labor costs; and (2) contract services provided.



March 1999                                     11                           CN S13-70001
                                   Office of Inspector General
                                       Study of Cost Issues


      Activity 3 - Analyze Labor Cost

      As a starting point, we reviewed how the Department derives its budgeted OPE labor
      costs. We found that OPE assigns each employee a payroll code that ties employee salary
      to a budget fund or funds.14 We found that once OPE assigned labor costs to the
      corresponding funding source(s), it performed no further cost allocations. Because we
      found nothing to indicate that OPE was not allocating costs to the proper appropriation
      budget fund(s), we accepted their reported labor costs as accurate.

      Because OPE had not allocated the labor costs to the organizations/programs that
      generated them, we performed the following processes to accomplish this goal: (Also see
      Appendix C for an illustration of the processes).

      !        We obtained from the Office of Personnel the Department’s labor files for calendar
               years 1996 and 1997, which included data for all permanent, part-time, and
               contract employees.15

      !        We abstracted OPE employee data to obtain OPE labor costs, and traced these
               costs to the sub-organizations (offices) where the employees worked.

      !        We combined and allocated the sub-organization labor costs (both direct and
               indirect16) into one of the four primary OPE organizations--PPI (Planning, Policy,
               and Innovation), HEP (Higher Education Programs), SFAP (Student Financial
               Assistance Programs), or HBCU (Historically Black Colleges and Universities).

      !        Because PPI provides services for HEP and SFAP, we allocated PPI labor costs to
               HEP and SFAP (using HEP and SFAP direct labor percentages previously
               calculated), which produced new SFAP and HEP labor cost totals.




14    The funds may be budgeted from a single program like FFELP, or from multiple programs like the FDLP
      and program administration funds.
15    We tested whether the calendar-year payroll data would differ significantly from data recorded in PAS,
      which is based on fiscal year. We found no significant differences.
16    We allocated the OPE indirect labor costs based on the direct labor costs of the three OPE organizations--
      PPI, HEP, and SFAP (note: OPE treats HBCU as a separate entity therefore no costs were allocated). The
      formula we used was--the individual organizations’direct labor costs divided by the total direct labor costs
      for the three organizations, which produced a percentage for each organization.

March 1999                                            12                               CN S13-70001
                                    Office of Inspector General
                                        Study of Cost Issues


      !        Based on which program an organization’s work benefitted, we allocated SFAP
               labor costs17 (both direct and indirect) to the student-aid programs--FDLP,
               FFELP, and Campus Based/Pell Grant.

      !        Finally we allocated the labor costs of two OPE service programs--IPOS
               (Institutional Participation Oversight Service) and DCS18 (Debt Collection
               Service).19

      Activity 4 - Analyze Contract Cost

      To allocate contract costs properly, it was necessary to ensure that the results reflected the
      activities and services performed to operate the FFELP and FDLP programs during fiscal
      years 1996 and 1997, regardless of when payment invoices were received (such as after
      the end of the fiscal year) or what funding source was used to pay them. When we
      reviewed the Department’s contract cost summary data (in PAS) for fiscal years 1996 and
      1997, we realized that reported contract expenses might not reasonably reflect actual
      contract activities. For example, 93 percent of reported fiscal year 1996 costs for the
      GSL/DCS System were allocated by the Department to the FDLP, despite the fact that
      this contract supports mainly FFELP. While a few direct loans were in the Debt
      Collection Subsystem at this time, an allocation of 93 percent of the costs to FDLP does
      not reasonably reflect actual operating activity. During our discussions with OPE budget
      office personnel we learned that funding source determines how ED allocates PAS cost,
      including contract invoice costs, to the loan programs.

      We performed a detailed invoice analysis of fiscal years 1996 and 1997 contract invoices
      to both account for invoices received after the close of the fiscal year and to appropriately
      allocate FDLP and FFELP program costs. We relied on portions of work that Macro
      performed in their Fiscal years 1996 contract cost analysis.




17    HEP costs were no longer relevant to our study as they do not pertain to the FDLP and FFELP programs.
18    IPOS regulates schools eligible to have their students receive federal financial student aid (including loans),
      while DCS attempts to collect unpaid financial aid amounts by borrowers who do not honor their loan
      commitments.
19    To allocate IPOS costs we used the only common denominator available--dollar amount of student loans
      originated in each loan program in a given year as a percentage of overall dollars originated in a given
      year for all the financial aid programs. To allocate DCS costs we also used the only common denominator
      available--dollar amount of student loans collected for each loan program in a given year as a percentage
      of overall dollars collected for all student aid programs.

March 1999                                             13                                CN S13-70001
                                 Office of Inspector General
                                     Study of Cost Issues


              Allocation Methodology: To analyze contract invoice costs and allocate them in a
              manner that reflects the amount of resources that a program(s) required, it is
              important to understand how contract costs are billed to the Department and
              allocated by the Department between programs. The majority of costs associated
              with contract services are based on contractor services performed and billed
              through invoices. Once a contractor performs work, whether on a monthly or task
              order basis, that contractor sends an invoice to the Department. The Department
              approves the invoice for payment and allocates a portion of cost to each loan
              program, based on funding source(s).

              The OIG performed an analysis of invoices based on a judgmental sample of fiscal
              years 1996 and 1997 FDLP and FFELP systems’contracts used to provide student
              financial aid (SFAP) and information necessary to run the SFAP programs. This
              sample represents six major FDLP and FFELP contracts that comprised
              approximately 75 percent (on average) of total FDLP and FFELP contract costs
              reported in PAS for fiscal years 1996 and 1997. Besides comprising a majority of
              total FDLP and FFELP contract costs, we also selected the six contracts for
              invoice review for one or more of four reasons. The contract(s):

              !        supported both loan programs, so we needed to separate cost by program;

              !        supported only FDLP, but because loan servicing costs are volume-driven20
                       they must be separated from other contract costs--origination,
                       consolidation, and central database--to increase them to reflect a mature
                       FDLP;

              !        supported both programs, but because certain costs are volume driven,
                       FDLP costs must be identified as either fixed or variable and increased to
                       reflect a mature FDLP; and/or

              !        supported only FDLP, but program development (start-up) costs must be
                       separated so that we can capitalize and then amortize their costs over the
                       life of the contract.

      While the actual cost allocation steps varied by contract, our invoice analysis for each of
      the six contracts included an examination of: 1) project documentation to determine the


20    As noted by the Department in “ADP Costs Related to Student Financial Assistance,” Budget Service,
      February 11, 1997.

March 1999                                         14                             CN S13-70001
                                   Office of Inspector General
                                       Study of Cost Issues


       contract objective and period of performance, billing methods (i.e., pricing schedules),
       purposes of any contract amendments, etc.; and 2) pricing schedules, task order
       descriptions, and individual invoices to determine services received, program(s) benefitted,
       FDLP development costs, and how to allocate program costs.

       Our contract voucher reviews also provided needed assurance that the Department, in
       general, was correctly recognizing the total amount of dollar costs for the largest contracts
       (even though they allocated these costs by funding source).

       We allocated all other contract costs (for all contracts other than the six we reviewed)
       between FDLP and FFELP during our initial allocation of PAS data, with the exception of
       contract costs funded from OPE’s FDLP funding account, the portion allocated for
       Student Aid Management (SAM). Because OPE uses SAM to fund FFELP costs, we
       reallocated these costs from the FDLP to FFELP.

Phase 3: Reallocate Administrative Costs

Table 1 below shows administrative costs based on unchanged information in the Department’s
records,21 and is the starting point for our cost reallocation. Table 2 below, meanwhile, presents
our cost reallocation of the Department’s FDLP and FFELP administrative costs for Fiscal years
1996 and 1997 based on actual program resource usage.22 For example, we reallocated an
average of $80 million for each fiscal year to the FFELP that the Department charged to the
FDLP in its financial statements. The result is that FFELP administrative costs per loan are
increased while FDLP administrative costs per loan are lowered, which more accurately reflects
true program resource usage.




21     The cost data came from the financial statements and the volume data came from the “Data Book.”
22     To derive our estimated FFELP administrative costs, we reclassified guarantee agency administrative costs
       from a subsidy to an administrative cost.

March 1999                                           15                              CN S13-70001
                                       Office of Inspector General
                                           Study of Cost Issues


                                       Table 1 - Administrative Cost

                                              FFELP -96     FDLP - 96          FFELP -97         FDLP -97

 Outstanding Loan Volume (000's omitted)          46,206         3,275               48,972           6,691



 Administrative Cost (000's omitted)            $176,715      $237,330             $137,865        $321,610



 Administrative Cost per loan                         $4          $72                      $3              $48



              Table 2 - OIG Estimated Administrative Costs for a Mature FDLP

                                              FFELP -96     FDLP - 96          FFELP -97        FDLP -97

 Outstanding Loan Volume (000's omitted)           46,206          24,880            48,972          26,370



 Administrative Cost (000's omitted)             $823,017        $625,928          $755,998        $614,374



 Administrative Cost per loan                         $18                $25           $15                 $23



We consider our estimation of the Department’s administrative FDLP costs to be conservative
because we limited the types of variable costs that we increased in representing a mature FDLP to
contract costs. Specifically, we increased contract costs and loan volume projections, but did not
increase internal Department costs such as labor, postage, supplies, travel, and other similar costs
(these costs are relatively minor) that may increase as the number of outstanding FDLP loans
increase. We did not increase these costs because we recognize that the Department might
achieve efficiency gains as the number of outstanding FDLP loans increases, which might offset
any additional costs realized.

While the Department’s FDLP administrative costs per loan were higher than its FFELP
administrative costs per loan, this seems reasonable because of the difference in functions
performed by the Department, as follows.



March 1999                                          16                              CN S13-70001
                                    Office of Inspector General
                                        Study of Cost Issues


!       In the FFELP the Department performs two functions: 1) oversight of schools, lenders,
        and guaranty agencies; and 2) default collections.

!       In the FDLP the Department performs three functions: 1) oversight of schools; 2) default
        collections; and 3) management of the FDLP, including origination, servicing,
        consolidation, and other costs that lenders incur in the FFELP.

The two-year average of the Department’s FDLP administrative costs is $24 per loan. Of the $24
total, $7 is used to perform oversight and default collections, while the remaining $17 represents
FDLP management costs. To assess the reasonableness of the FDLP management costs, we
compared the Department’s cost to manage the FDLP--$17 per loan--to the average cost that we
estimated that large lenders would have incurred to manage the FDLP program--$13 per loan (see
Table 3 in Appendix B). Given the similarities of the two programs and the results of the audits
we reviewed (see Appendix E), we believe that a significant portion of the $4 difference may be
due to inefficiencies. However, we recognize that some of the difference may be due to other
factors.23

Because there was no basis to compare the Department’s incurred FFELP administrative costs
(no other entity performs a similar oversight function), we were unable to estimate what portion
of these costs result from inefficiencies. However, based upon our review of other related studies
and audit reports (referenced in the next section), it is likely that any inefficiencies that affect the
FDLP affect all the SFAP programs.

Possible reasons for administrative inefficiencies

Although we did not conduct an audit, we did attempt to determine the reasons why there appear
to be inefficiencies in the operation of the student assistance programs. We reviewed many
reviews, audits, and studies that have been conducted to address various Departmental SFAP
management issues. (Please see Appendix E for an extensive list of these documents.) Based
upon our review of these studies, we believe the following are possible reasons for Departmental
inefficiencies that may generate higher SFAP management costs.

        Lack of Critical Information

        Critical to effective management are reliable information systems. In our cost study we
        found that management has not instituted a cost accounting system to accurately identify



23      For example, the Department had to follow certain federal procurement rules.

March 1999                                            17                               CN S13-70001
                                  Office of Inspector General
                                      Study of Cost Issues


      the costs incurred by the various SFAP programs.24 Additionally, an OIG review of the
      Department’s oversight of the FDLP found that the Department did not possess sufficient
      data to effectively oversee participating FDLP schools.25

      Management and Staff Qualifications

      Because systems contracts are highly technical and require competencies beyond program
      knowledge, qualified technical and contract management at all levels is essential if the
      PBO is to rely on its multiple contractors to operate and modify existing systems, design
      new systems, and provide customer service. At least in the beginning, the PBO will be
      staffed by current SFAP employees. A 1996 OIG management report, however, disclosed
      that some senior and lower-level managers in the Program Systems Service did not
      possess computer science degrees, and expressed similar qualification concerns about
      certain contract administration staff.26 This contributed to several widely publicized
      problems, including interruptions in services to students,27 inability to bring systems online
      on a timely basis,28 and the awarding of unneeded contracts.29

      Incompatible Systems

      Contractors, participating institutions, General accounting Office (GAO), OIG, and the
      Advisory Committee have examined the Department’s systems and found many of them



24    “... Education has not defined a process for how it will assemble and analyze the data and how it will
      prepare the performance reports required by the Government Performance and Results Act (GPRA) of
      1993.” - U.S. Department of Education, Annual Accountability Report Fiscal Year Ended September 30,
      1997, “Report on Internal Controls” July 21, 1998, p. 58.
25    Office of Inspector General Review of the Department’s Oversight of Schools Participating in the William
      D. Ford Federal Direct Loan Program, ACN 04-70016, September 1998, pp. 1-7.
26    Office of Inspector General, Coming Together to Face the Challenges of an Uncertain Future, ACN S03-
      60001, June 1996, p. 8.
27    In 1996 a contractor’s inability to perform as specified forced Free Application for Federal Student Aid
      (FAFSA) processing delays - The Chronicle of Higher Education, “U.S. Says 1.5 Million Student-Aid
      Applications Are Delayed,” March 8, 1996, A27.
28    Loan origination system problems resulted in delays, additional costs, and reduced customer service -
      Letter from The Honorable William F. Goodling, Thomas Petri, Howard McKeon and Pete Hoekstra to
      The Honorable Richard Riley, July 22, 1998.
29    Canceled FDLP Multiple Servicer Contracts cost the Department more than $40 million. These contracts
      were awarded even though the Department was advised that the volume projections supporting these
      contracts may have been overstated . The OIG held a series of interviews prior to the issuance of the
      contracts awards.

March 1999                                          18                              CN S13-70001
                                  Office of Inspector General
                                      Study of Cost Issues


       incompatible, and lacking data standards and common identifiers.30 The lack of system
       uniformity complicates data matching between systems. For example, identification of
       student records across systems may require not only a Social Security number, but
       additional and sometimes different data fields.31

Legislative mandates and accounting standard

With the advent of the new PBO, the new Chief Operating Officer (COO) has a fresh opportunity
to examine past operational difficulties. He can institute measures to provide important cost
information to more effectively manage the SFAP programs. In fact, the COO will need to obtain
relevant SFAP program cost information to comply with the Statement of Federal Financial
Accounting Standard (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for
the Federal Government,” as well as the CFO Act of 1990 and Government Performance and
Results Act of 1993 (GPRA).

The Office of Management and Budget, in a July 31, 1995 publication, explained the nature of the
relationship between cost information and the SFFAS and legislative requirements:

       “The requirement for managerial cost accounting on a regular and consistent basis
       supports recent legislative actions. The CFO Act of 1990 states that agency CFOs shall
       provide for the development and reporting of cost information and the periodic
       measurement of performance. In addition, the Government Performance and Results Act
       (GPRA) of 1993 requires each agency, for each program, to establish performance
       indicators and measures or assess relevant outputs, service levels, and outcomes of each
       program as a basis for comparing actual results with established goals. The nature of
       these legislative mandates requires reporting entities to develop and report cost
       information on a consistent and regular basis.” 32




30     GAO, Student Financial Aid Information, Systems Architecture Needed to Improve Programs Efficiency,
       July 1997, p. 1;
       Advisory Committee, Briefing Document, “ Opportunities for Consolidation/Reengineering of the
       Department of Education’s Title IV Delivery System” March, 1996;
       OIG, Testimony to Subcommittee on Human Resources, Committee on Government Reform and
       Oversight, “Significant Management and Programmatic Issues Confronting the U.S. Department of
       Education,” April, 1997.
31     GAO, Systems Architecture Needed to Improve Program’s Efficiency, July, 1997.
32     Executive Office of the President, Office of Management and Budget, “Managerial Cost Accounting
       Concepts and Standards for the Federal Government,” July 31, 1995, p. 26.

March 1999                                         19                             CN S13-70001
                                    Office of Inspector General
                                        Study of Cost Issues


Moreover, as clearly stated in the PBO legislation, Congress requires improvements to both
accounting and managerial systems. Congress expects improved services to students and other
participants, reduced costs to the federal government, increased accountability of officials
administering operational aspects of the programs, greater flexibility in the management of
operational functions, integration of the informational systems, implementation of a common,
integrated delivery system, and development and maintenance of a system that contains complete,
accurate and timely data.33
                                 ___________________________

OIG SUGGESTIONS
We suggest that the COO implement the following to manage the SFAP programs more
effectively and to comply with SFFAS No. 4, the CFO Act of 1990, GPRA, and congressional
intent regarding the PBO.

Institute an activity-based costing system (ABC)

While the Department’s current method of “allocating” its costs based on funding source allows it
to account for its Congressional appropriations, the method does not meet the accounting34 and
legislative requirements for cost information discussed above, nor does it provide any needed cost
information that managers could use to improve SFA delivery mechanisms. Activity-based
costing (ABC), however, would provide a suitable mechanism to generate the required cost
information, because it allows service organizations to measure the costs of its activities. As one
government consultant stated, “The government environment is tailor-made for Activity-Based
Costing and its rapidly growing corollary, Activity-Based Management.”35

A properly designed activity-based costing system would allow the COO to gather financial and
operating information that reflects the performance of activities. It would also supply
management with relevant information to plan, manage, control, and direct the activities of
business in order to improve processes and products, help eliminate waste, and execute business
operations and strategies.36


33     1998 Amendments to the HEA, Section 141(a)(2).
34     The fifth paragraph of the FASAB Statement of Recommended Accounting Standards # 4 states, “Each
       reporting entity should accumulate and report the costs of its activities on a regular basis for management
       information purposes.”
35     John M. Vann, Armed Forces Comptroller, “Government Uses of Activity-Based Costing,” Winter 1997.
36     John Miller, Journal of Cost Management, “Designing and Implementing a New Cost Management
       System (Winter 1992): pps. 41-53.

March 1999                                             20                               CN S13-70001
                                 Office of Inspector General
                                     Study of Cost Issues


Some government agencies have begun using activity-based costing to “determine the true costs
of their goods and services.”37 The Department of Defense, for instance, used ABC to determine
the cost of military labor to perform public works functions.38 The Internal Revenue Service
(IRS) used ABC to reduce tax-processing costs while improving customer services (e.g.,
providing accurate answers to taxpayer inquiries in a single call).39

Additionally, at least one of the PBO’s chief loan industry competitors has begun using activity-
based costing. The Student Loan Marketing Association (Sallie Mae), which currently holds the
largest amount of outstanding student-loan dollars among all institutions, including the PBO, has
begun using ABC to improve its loan servicing operations. Sallie Mae has used ABC to help
determine how much time their employees spend on various activities. Additionally, Sallie Mae
uses ABC to determine the cost of a loan in different repayment statuses, which means that if the
economy changes and more loans go into delinquent or claim status, managers can determine the
change in costs due to shifting of loans from current to delinquent or claim status.40

Institute procedures to track employees’ time to program and activity

Tracking employees’time to the program and activity they work on will allow the PBO to tie
labor costs to activities performed and to better measure the true administrative costs of the
various SFAP programs. Additionally, it provides an objective method to measure employee
performance for the purpose of determining appropriate pay levels and rewards. It is critical, we
believe, that the COO implement a Time and Tracking System.

Develop models to predict borrower behavior, loan volume projections, and the cost effects of
management decisions

As noted earlier, the Department lacks critical information needed to manage the SFAP programs.
An activity-based costing system would provide the Department needed financial data, while an
employee tracking system would provide information detailing employee activity. However, there
are other informational needs, such as: borrower behavioral patterns to better serve them, loan
volume projection data to project the number of needed servicing centers, and cost projection
data in order to budget. Further, two provisions in the 1998 HEA Amendments require the COO
to help the Secretary determine both the costs of providing specific programs, and the
composition of and changes in those costs. The Secretary, in consultation with the Treasury


37     Vann, Ibid.
38     Vann, Ibid.
39     John B. MacArthur, RIA Group, “Cost Management at the IRS,” 1998.
40     Faheem Zuberi and John Antos, RIA Group, “Interest in ABC Rates High at Sallie Mae,” 1998.

March 1999                                         21                            CN S13-70001
                                Office of Inspector General
                                    Study of Cost Issues


Secretary, may sell direct loans to lenders and use the proceeds to offer incentives for on-time
repayment by borrowers if the Secretary determines that doing so is in the federal financial
interest and does not result in any cost to the federal government.

By using tools such as behavioral, cost and volume models, the COO would be able to project the
impact of these and other changes contemplated by the 1998 Amendments, and to manage the
PBO more efficiently. The COO could also use these models to assist the Secretary in developing
the required five-year performance plan that establishes measurable objectives.

Consider and take appropriate actions to address possible reasons for cost inefficiencies

The COO now has the opportunity to evaluate the possible reasons that have created likely
inefficiencies in the operation of SFAP. This includes deciding what management information
systems are needed, assessing management capabilities, and determining the level of integration
needed for the computer systems.

                                        **********

We recognize the difficulty of the tasks that we have suggested the Department undertake. We
hope that the COO will find our study and its underlying methodology useful as he implements the
PBO. We believe it can provide a basis to improve and track the overall efficiencies of both the
FDLP and FFELP.




March 1999                                       22                          CN S13-70001
                                                                      Appendix A, Page 1 of 6

SUBSIDY COSTS

Introduction

Any attempt to calculate a subsidy cost per loan is hindered by the volatile nature of subsidy costs
and the current lack of FDLP maturity. These hindrances make it difficult to determine a stable
per loan subsidy cost that fairly represents the true costs of the FDLP and FFELP.

CRA guides cost methodology

The Credit Reform Act of 1990 (CRA) establishes the methodology for determining subsidy cost
calculations for budgeting purposes. CRA requires an estimation of the net present value of all
future cash flows resulting from loan originations. This entails having to predict future economic
conditions that impact the cash flows for both the current cohort year and re-estimates of prior
cohort years. From one cohort year to the next economic predictions can be different, causing
subsidy costs to vary. As such, subsidy costs in any one year reflect both future and past costs
and can vary significantly from one year to the next. This constant fluctuation of subsidy costs
makes it difficult to calculate a total subsidy cost per loan that provides a definitive answer as to
which program is more expensive. Future economic uncertainty also makes it very difficult to
project the additional subsidy costs associated with the increased number of outstanding loans
projected for a mature FDLP.

Subsidy cost per loan does not represent the programs’costs

It is not a problem to calculate a subsidy cost per loan figure. However, it is a problem to
calculate a subsidy cost per loan figure that fairly represents the loan programs’costs. The
economic conditions present at the time of any calculation determine which program is more
expensive. Consequently, we do not believe that it is possible, at this time, to calculate a
definitive subsidy cost per loan. However, a long-term study of the relationship between the
economy and the loan programs may shed some light on this issue.

To illustrate these points we provide the following discussions:

!      Definition of credit reform.
!      Accounting for subsidy costs.
!      The effect of re-estimation on subsidy costs.
!      Impact of interest rates.




March 1999                                       23                           CN S13-70001
                                                                     Appendix A, Page 2 of 6

Analysis of Subsidy Costs

Definition of Credit Reform

CRA’s definition of cost

The CRA requires agencies to calculate subsidy costs on a net present value basis. Section 502 of
the act defines the term “cost” as follows:

        (5)(A) The term “cost” means the estimated long-term costs to the Government of a
       direct loan or loan guarantee, calculated on a net present value basis, excluding
       administrative costs and any incidental effects on governmental receipts or outlays.

              (B) The cost of a direct loan shall be the net present value, at the time when the
              direct loan is disbursed, of the following cash flows:
                      (i) loan disbursements;
                      (ii) repayments of principal; and
                      (iii) payments of interest and other payments by or to the Government over
                      the life of the loan after adjusting for estimated defaults, prepayments, fees,
                      penalties and other recoveries

              (C) The cost of a loan guarantee shall be the net present value when a guaranteed
              loan is disbursed of the cash flow from -
                      (i) estimated payments by the Government to cover defaults and
                      delinquencies, interest subsidies, or other payments, and
                      (ii) the estimated payments to the Government including origination and
                      other fees, penalties and recoveries.

              (D) Any Government action that alters the estimated net present value of an
              outstanding direct loan or loan guarantee (except modifications within the terms of
              existing contracts or through other existing authorities) shall be counted as a
              change in the cost of that direct loan or loan guarantee. The calculation of such
              changes shall be based on the estimated present value of the direct loan or loan
              guarantee at the time of modification.

CRA defines accounts

The CRA defines the following accounts:




March 1999                                      24                           CN S13-70001
                                                                     Appendix A, Page 3 of 6

502(6) - The term “credit program account” means the budget account into which an
       appropriation to cover the cost of a direct loan or loan guarantee program is made and
       from which such cost is disbursed to the financing account.

502(7) - The term “financing account” means the non-budget account or accounts associated with
       each credit program which hold balances, receives the cost payment from the credit
       program account, and also includes all other cash flows to and from the Government
       resulting from direct loan obligation or loan guarantee commitments made on or after
       October 1, 1991.

502(8) - The term “liquidating account” means the budget account that includes all cash flows to
       and from the Government resulting from direct loan obligations or loan guarantee
       commitments made prior to October 1, 1991. These accounts shall be shown in the
       budget on a cash basis.

Under CRA, the “financing account” is the account through which all program expenses and
receipts flow, and all outstanding balances are recorded. If the net present value of all cash flows
of a single cohort year is negative, the funding to offset that negative balance is obtained through
the “program account.” Ultimately, all expenses and receipts flowing in and out of the “financing
account” should equal zero. Further, when the financing account becomes out of balance due to
changes in the initially projected cash flow calculations, which might occur when economic
conditions change, re-estimations are performed to bring the balance back to zero.

Accounting for Subsidy Costs

The Department properly follows the Statement of Federal Financial Accounting Standards
(SFFAS) No. 2, “Accounting for Direct Loans and Loan Guarantees” when accounting for its
subsidy costs. The purpose of SFFAS No. 2 is to apply the concept of credit reform to the
Federal Government’s accounting of subsidy costs.

The subsidy expense portion of program costs includes provisions for loan defaults, interest
subsidies, fees, and other borrower related expenses. For subsidy expenses the Department
projects the cash flows that will occur over the entire life of loans originated in any one year, or
what is referred to as a “cohort year.” In order to derive subsidy expense the Department
performs two calculations, current-year estimates and re-estimates. To perform these
calculations, the Department has developed a model which includes more than 1600 assumptions,
including interest rates, type of loan, borrower repayment patterns, etc.




March 1999                                       25                          CN S13-70001
                                                                         Appendix A, Page 4 of 6

The first calculation establishes subsidy expenses for the current-year originated loans. The
second calculation provides re-estimations of prior-year subsidy expense calculations. Re-
estimations are necessary because projections about interest and default rates and other variables
that affect loan program costs change over time. These re-estimations are charged to the current
year financial statements without changing past-year financial statements. For example, the fiscal
year 1997 re-estimation is an adjustment of program costs for periods prior to 1997.

The Effect of Re-estimation on Subsidy Costs

To illustrate the impact of the effect of re-estimation on total costs, Table 1 below presents FDLP
and FFELP program cost per loan for fiscal years 1996 and 1997. We obtained the program costs
from the Department’s fiscal years 1996 and 1997 Financial Statements. We do not consider this
table to be a definitive representation of program cost per loan. Rather, the table is presented for
discussion purposes to illustrate the effect that yearly re-estimations have on program costs. The
difference between row one and row two is that row two includes the re-estimation of prior
program costs.

                           Table 1 - OIG’s Illustrated Effect of Re-estimations

             (Per loan)               FFELP - FY 96     FDLP - FY 96     FFELP -FY 97    FDLP - FY 97

 Program Cost -current cohort                    $63              $112             $71             $28
 year

 Program Cost - with re-                         $84              $176             $56             $85
 estimations



As reflected in the second row above, we added the Department’s yearly re-estimations from
fiscal years 1996 and 1997 to the program costs reflected in the first row. This significantly
impacted the program costs. For example, fiscal year 1997 FDLP program costs per loan, which
were lower than fiscal year 1997 FFELP costs per loan in the first row, are now greater.
Therefore, the Department’s reported program costs are not a stagnant total; rather, they are
subject to yearly re-estimations based on changing economic conditions. As shown above in
Table 1, re-estimations may make one program’s subsidy cost per loan appear less then the other
at any point in time.

Impact of Interest Rates

The most significant variables that can affect loan subsidy expenses are interest rates, default
rates, and loan volumes (if the makeup of borrowers changes significantly). Given the short
history of FDLP, default rates and loan volumes have not caused significant differences in the
Department’s program costs because they have been similar in both programs.

March 1999                                            26                        CN S13-70001
                                                                         Appendix A, Page 5 of 6

However, based on timing and magnitude, interest rate changes can significantly affect the
Department’s FDLP subsidy costs.41

A major FDLP expense the Department cannot control is interest on Treasury borrowing.
Congress decides the applicable funding instrument upon which the Department’s costs of funds is
based--the 10-year Treasury note. Private industry (FFELP lenders), however, can use a blend of
short and long-term debt, issue stock and use earnings to minimize their interest costs and reduce
risk. This means that private lenders are less sensitive to interest rate changes than the
Department, whose borrowing costs will rise faster when long-term interest rates increase and
drop faster when they decrease. If Congress provided the Department the option of financing its
loan funds through other sources, the Department may or may not save money based on its ability
to obtain the lowest funding rates available.

Interest Rate Spread

The most significant impact interest rates have on FDLP costs is the difference between the
interest that borrowers pay and the Department’s cost of capital. For example, in fiscal years
1996 and 1997 the 91-day T-bill rate used to calculate the borrowers’Stafford interest rate was
5.16 percent. The borrowers were charged the 91-day T-bill rate plus 2.5 percent (or 7.66
percent) while in-school and 3.1 percent (or 8.25 percent42) while in-repayment. The interest rate
the Department paid the Treasury for both years was 6.77 percent, based on the 10-year Treasury
note. Therefore, the Department’s spread between the rate it paid the Treasury and what
borrowers were charged was .89 percent for in-school students and 1.48 percent for students in-
repayment. The difference between the spread the Department is currently earning, and what it
should cost to administer loans, provides a surplus (a profit in private industry) to offset its FDLP
subsidy and administrative costs. The existence and the size of a surplus, however, depends solely
on the current interest rates.

Interest Rate Volatility

The Congressional Research Service43 (CRS) has noted that the spread between 10-year Treasury
and the 91-day T-bill notes has been volatile over the last 15 years. They noted the spread
between the two has varied from a very narrow 0.1 percentage points to a very wide 4.5
percentage points. When this spread narrows the Department earns more money from FDLP
loans because the borrower may pay a premium above the 91-day T-bill rate.


41     Interest rate increases or decreases also affect the Department’s FFELP subsidy costs.
42     There is a legislative cap of 8.25 percent on borrower interest.
43     CRS Report for Congress “Student Loans: What is the Problem With Converting to the 10-Year Interest
       Rate Benchmark?” p. 2, July 25, 1997.

March 1999                                          27                             CN S13-70001
                                                                         Appendix A, Page 6 of 6

However, if the spread increases, FDLP loans become more expensive because what the borrower
pays is capped at 8.25 percent.

Given the cost volatility of the relationship between 91-day T-bills and 10-year Treasury notes,
we estimated the FDLP interest costs to include the impact that three different interest spreads
(1.61 percent (current), .1 percent, and 4.5 percent) would exert on a mature FDLP. To
accomplish this we did the following:

1.      For actual outstanding FDLP loan dollars we applied the current interest rate.

2.      In establishing a mature FDLP we increased loan volumes. As noted earlier, one
        difficultly in projecting subsidy costs is economic uncertainty, which may cause interest
        rates to rise or fall. To illustrate this volatility, we calculated interest expenses that reflect
        three different interest rate spreads for the additional loan volume.

We included these interest expense calculations in our Table 2 subsidy cost calculations shown
below, which are presented on an accrual basis. We do not consider Table 2's subsidy cost
calculations to be a definitive representation of actual subsidy costs incurred. Rather, Table 2 is
presented for discussion purposes to illustrate the dramatic effect that interest rate changes have
on FDLP subsidy costs.

                       Table 2 - OIG’s Illustrative Effect of Interest Changes

                                                            FDLP - 96          FDLP -97
Outstanding Loan Volume - Mature FDLP (000's omitted)              24,880            26,370

Current Interest Spread--1.61%
 Subsidy Cost (000's omitted)                                  $1,992,494         $1,570,944
 Subsidy Cost per loan                                                $80                $60

Interest Spread of 4.5%
   Subsidy Cost (000's omitted)                                $3,348,137         $2,832,150
  Subsidy Cost per loan                                              $135               $107

Interest Spread .1%
  Subsidy Cost (000's omitted)                                 $1,177,608           $911,975
  Subsidy Cost per loan                                               $47                $35




March 1999                                          28                            CN S13-70001
                                                                  Appendix B, Page 1 of 3

DATA TABLES

The following tables for FY 1997 and FY 1996 provide a detailed breakdown of our estimated
administrative costs for FFELP and a mature FDLP. (Note that “FDLP IPOS/DCS” columns refer
only to the portion of those costs incurred due to the FDLP, and that in Tables 4, 5, and 6 these
costs are reflected in the overall “FDLP” per loan cost column.)


                          Table 1 - Estimated Administrative Cost FY 1997

                 1997                                                              FDLP
                (000's)                       FDLP              FFELP            IPOS/DCS
Total Labor Cost                                    45,616            35,960            8,860
Total Travel & Transportation                        2,683             1,243              104
Total Rent, Communct. & Utilities                   21,490             6,426               27
Total Printing & Reproduction                        3,798             3,481              315
Total Contract Services                            393,613           172,647            9,383
Default Collection Cost                            144,816           336,867          144,816
GA Cost                                                 -            198,091               -
Total Supplies & Material                              697               465               52
Total Equipment                                      1,661               818               63
Grand Total                                      $ 614,374         $ 755,998        $ 163,620



                          Table 2 - Estimated Administrative Cost FY 1996

                    1996                                                           FDLP
                   (000's)                       FDLP             FFELP          IPOS/DCS
Total Labor Cost                                     37,996             32,720          8,766
Total Travel & Transportation                         1,868              1,878            122
Total Rent, Communct. & Utilities                    23,058             17,537             36
Total Printing & Reproduction                          5,962             6.774            419
Total Contract Services                             364,239            216,526          6,202
Defaulted Loans Collection Cost                     188,685            335,818        188,685
GA Cost                                                    -           209,869              -
Total Supplies & Material                              2,036             1,210             64
Total Equipment                                        2,083               685             76
Grand Total                                        $625,928           $823,016      $204,370




March 1999                                      29                         CN S13-70001
                                                                          Appendix B, Page 2 of 3

This table presents our calculation of what it would cost private industry to service a mature
FDLP.


                                Table 3 - Private Industry Servicing Cost


                                                              2-year average
Total Loan Volume Outstanding                                                   25,625
In-School & Deferred                                                     $ 20,975,176
 Cost to service percentage44                                                   0.32%
 Estimated Industry Cost to Service                                            66,771

In-repayment                                                             $ 24,542,896
Cost to service percentage45                                                    0.95%
Estimated Industry Cost to Service                                            233,158

In-repayment Consolidation                                                $ 7,801,514
Cost to service percentage46                                                    0.47%
Estimated Industry Cost to Service                                          $ 36,667
                                                                                   -
Total servicing cost per loan                                              $ 336,580
Servicing cost per loan                                                           $13




44      U.S. Treasury Report “The Financial Viability of the Government Guaranteed Student Loan Program”,
        February 1998 - table 4.
45      Ibid.
46      Ibid.

March 1999                                          30                             CN S13-70001
                                                                                    Appendix B, Page 3 of 3


The following Tables show our calculation of the per loan administrative cost.

                       Table 4 - Two Year Average of Administrative Cost

           Two Year Average                                                           FDLP          FDLP Minus
                (000's )                        FDLP                FFELP           IPOS/DCS       IPOS/DCS Cost
Total Outstanding loan Volume                      25,625                               25,625              25,625
                                                                        95,178

Total Cost                                          620,151            789,508         183,995               436,156

Cost Per Loan Outstanding                   $                 $             17 $               7   $             17
                                                        24



                        Table 5 - FY 1997 Administrative Cost Per Loan

                1997                                                                                     FDLP
                                 (000's )           FDLP                        FFELP                  IPOS/DCS
 Total Outstanding loan Volume                              26,370                   48,972                   26,370

 Total Cost                                                614,374                   755,998                 163,620

 Cost Per Loan Outstanding                      $              23           $            15              $         6


                        Table 6 - FY 1996 Administrative Cost Per Loan


                 1996                                                                                    FDLP
                (000's )                            FDLP                        FFELP                  IPOS/DCS
 Total Outstanding loan Volume                              24,880                   46,206                   24,880

 Total Cost                                                625,928                   823,017                 204,370

 Cost Per Loan Outstanding                      $                 25            $         18             $         8




March 1999                                             31                                  CN S13-70001
                                                                    Appendix C, Page 1 of 2

LABOR ALLOCATION
Payroll Allocation - The flow chart below is a representation of the process we used to allocate
labor.




March 1999                                      32                          CN S13-70001
                  Appendix C, Page 2 of 2




March 1999   33         CN S13-70001
                                                                          Appendix D, Page 1 of 3

GRAPHIC DISPLAY - LOAN ORIGINATIONS

                                    Comparison of Dollar Amount of Loans Originated


                       25,000,000




                       20,000,000
  $ (ooo's ommitted)




                       15,000,000

                                                                                               FFEL
                                                                                               FDLP

                       10,000,000




                        5,000,000




                             -
                                         1995              1996              1997
                                                           Year




March 1999                                                34                    CN S13-70001
                                                             Appendix D, Page 2 of 3

                         Comparison of Percentage of Loans Originated



                90.00%



                80.00%



                70.00%



                60.00%



                50.00%
   Percentage




                                                                                      FFEL
                                                                                      FDLP
                40.00%



                30.00%



                20.00%



                10.00%



                0.00%
                          1995               1996               1997
                                             Year




March 1999                                   35                        CN S13-70001
                                                               Appendix D, Page 3 of 3


                           Percentage of Loan Originations by Loan Type



               70.00%




               60.00%




               50.00%




               40.00%
                                                                     FFELP - Stafford Unsubsidized
                                                                     FFELP- Stafford Subsidized
  Percentage




                                                                     FFELP - PLUS
                                                                     FDLP - Stafford Unsubsidized
                                                                     FDLP - Stafford Subsidized

               30.00%                                                FDLP - PLUS




               20.00%




               10.00%




                0.00%
                        1995           1996           1997
                                       Year




March 1999                                     36                      CN S13-70001
                                                                     Appendix E, Page 1 of 7

REFERENCES
The following is a list of audit reports, studies, and other related documents reviewed for this
study.

      Direct Loan Evaluation Case Study Summary Report: Academic Year 1996-97 - Macro
      International Inc, 1998

      Direct Loan Evaluation Survey of Institutions Participating In the Federal Direct Loan and
      Federal Family Education Loan Programs Academic Year 1996-97 - Macro International
      Inc, 1998

      Cost Management at the IRS - John B. MacArthur, RIA Group, 1998.

      Interest in ABC Rates High at Sallie Mae - Faheem Zuberi and John Antos, RIA Group,
      1998.

      Draft Notes Direct Lending’s Triumphs, Tribulations - Education Daily, November 1998

      Review of the Department’s Oversight of Schools Participating in the William D. Ford
      Direct Loan Program - OIG, ACN 04-70016, September 1998

      Letter from The Honorable William F. Goodling, Thomas Petri, Howard McKeon and Pete
      Hoekstra to The Honorable Richard Riley, July 1998

      Annual Accountability Report Fiscal Year Ended September 30, 1997 - US Department of
      Education , July 1998

      ICR Cost Attribution and Borrower Studies Could Assist to Meet the Objectives of Federal
      Financial Reporting and Program Management - OIG, ACN 07-70002, May 1998

      Direct Loan Evaluation Survey of Borrowers Participating in The Federal Direct Loan and
      Federal Family Education Loan Program Academic Year 1996-97 - Macro International
      Inc, April 1998

      The Financial Viability of the Government-Guaranteed Student Loan Program - US
      Treasury, February 1998.

      White House Signals Shift on Formula for Calculating Interest Rates on Student Loans -
      The Chronicle of Higher Education, January, 1998


March 1999                                          37                       CN S13-70001
                                                               Appendix E, Page 2 of 7

    Direct Loan Servicing Contracts - OIG, Action Memorandum, No. S-97-2, August 1997

    What Form Fits? An Analysis of Student Aid Organizational Innovations - Advisory
    Committee, July 1997

    Student Loans: What is the Problem with Converting to the 10-year Interest Rate
    Benchmark? - Congressional Research Service, July 1997

    Student Financial Aid Information, Systems Architecture Needed to Improve Program’s
    Efficiency - GAO, July 1997

    Fiscal Year 1996 and 1995 Financial Statements and Accompanying Notes - US
    Department of Education , July 1997

    Evaluation of the Federal Direct Loan Program - Briefing to the US Department of
    Education, Office of Postsecondary Education - Macro International Inc., June 1997

    Letter to William D. Ford Chairman, Committee on Education And Labor, House of
    Representatives - Advisory Committee on Student Financial Assistance, May 1997

    Testimony to Subcommittee on Human Resources Committee Government Reform and
    Oversight “Significant Management and Programmatic Issues Confronting the U.S.
    Department of Education - OIG, April 1997

    Third Annual Report on Cost Issues - Macro International Inc., March 1997

    Review of Selected Aspects of the Kentucky Higher Education Assistance Authority's
    Administration of The Federal Family Education Loan Program - OIG, ACN 04-60147,
    February 1997

    High Risk Series: Student Financial Aid - GAO, February 1997

    Accuracy of Student Aid Awards Can Be Improved by Obtaining Income Data From the
    Internal Revenue Service - OIG, ACN 11 -50001, January 1997

    Government Uses of Activity-Based Costing - John M. Vann, RIA Group, Winter 1997.

    Selected Characteristics of Schools in Two Major Federal Loan Programs - GAO, January
    1997




March 1999                                     38                      CN S13-70001
                                                               Appendix E, Page 3 of 7

    Action is Needed to Ensure that Excess Reserve Funds Accumulated by the Educational
    Credit Management Corporation (ECMC) Are Paid to the Department - OIG, SFA Action
    Memo - No.97-02, December 1996

    The California Student Aid Commission Should Return About $5 Million That It
    Overcharged to the Guaranty Loan Reserve Fund - OIG, ACN A09-60003, December 1996

    ED Should be Concerned about the Financial Responsibility of EduServe Technologies,
    Inc., St. Paul, AM. - OIG, SFA Action Memorandum No. 97-01, December 1996

    Impact of Ability-to-Benefit Provision on Student Loan Default and Graduation Rates-
    OIG, ACN 09-53002, December 1996

    National Student Loan Data System (NSLDS) Verification Study, Draft - Westat, Inc.,
    November 1996

    National Student Loan Data System - OIG, SFA Action Memo - No. 96-05, October 1996

    The Electronic Data Exchange-A Security Review is Needed - OIG, ACN06-50010,
    August 1996

    Improving the Federal Student Loan Programs - Advisory Committee on Student Financial
    Assistance, August 1996

    Review of Post-Default Consolidation Loans and Reserve Fund Uses of The Georgia
    Higher Education Assistance Corporation - OIG, ACN 04-60002, August 1996

    Department of Education: Status of Actions to Improve the Management of Student
    Financial Aid - GAO, July 1996

    Subsequent Review to Follow-Up Review on Selected Gatekeeping Operations - OIG,
    ACN 11-60004, June 1996

    Coming Together to Face the Challenges of an Uncertain Future - OIG, S03-60001, June
    1996

    The Department Should Continue Its Efforts to Improve the Accuracy of Its Student Loan
    Database - OIG, ACN 09-38058, June 1996




March 1999                                     39                      CN S13-70001
                                                               Appendix E, Page 4 of 7

    Audit of Tennessee Student Assistance Corporation's Reporting of defaulted Federal
    Family Education Loan Programs Loans Consolidated Under the Federal Consolidated
    Loan Program OIG, ACN 04-60003, June 1996

    Audit of Iowa College Student Aid Commission's Reporting of Defaulted Federal Family
    Education Loan Program Loans Consolidated Under the Federal Consolidation Loan
    Program OIG, ACN 05-6001 1, June 1996

    Audit of United Student Aid Funds, Inc.'s Reporting of Defaulted Federal Family Education
    Loan Program Loan Consolidated Under the Federal Consolidated Loan Program OIG,
    ACN 05-50009, May 1996

    Audit of Colorado Student Loan Program's Administration and Reporting of defaulted
    Family Education Loan Program Loans consolidated Under the Federal Consolidation Loan
    Program OIG, ACN 07-50004, May 1996

    Audit of Delaware Higher Education Loan Program's Reporting of Defaulted Federal
    Family Education Loan Program Loans Consolidated Under the Federal Consolidation
    Loan Program OIG, ACN 05-60007, May 1996

    Audit of Finance Authority of Maine's Reporting of Defaulted Federal Family Education
    Loan Program Loans Consolidated Under the Federal Consolidation Loan Program - OIG,
    ACN 0560008, May 1996

    How ABC can Help Service Organizations - Don Lambert and John Whitworth, CMA
    Magazine, May 1996

    Direct Loan/FFEL Program Cost Update - US Department of Education, April 1996

    Opportunities for Consolidation/Re-Engineering of the Department of Education's Title
    IV Delivery System Briefing Document - Advisory Committee on Student Financial
    Assistance, March 1996

    Lessons Learned from RTCs Handling of Federal Family Education Loans. Strategy
    Needed to Handle Student Loan Administrative Issues Involving Failed or Bankrupt
    Institutions Participating in the Federal Family Education Loan Program - OIG, ACN 04-
    38000, March 1996

    Second Annual Report on Cost Issues - Macro International Inc., March 1996



March 1999                                     40                      CN S13-70001
                                                                Appendix E, Page 5 of 7

    U.S. Says 1.5 Million Student-Aid Applications Are Delayed, - The Chronicle of Higher
    Education, March 1996

    ED Needs to Consider Implementing Changes to Monitoring Lenders and Servicers -
    OIG, ACN 05-40005, February 1996

    OPE Waivers: The Department Should Establish and Follow a Process - OIG, ACN 07-
    58051, February 1996

    Audit of Great Lakes Education Corporation's Reporting of Defaulted FFELP Loans
    Consolidated Under the Federal Consolidated Loan Program - OIG, ACN 05-50002,
    November 1995

    The Federal Direct Student Loan Program - Congressional Research Service, November
    1995

    Audit of Illinois Student Assistance Corporation's Reporting of Defaulted FFELP Loans
    Consolidated Under the Federal Consolidation Loan Program - OIG, ACN 05-50004,
    November 1995

    Closed Schools: $2.4 Billion Unaudited - OIG, ACN 07-48051, September 1995

    Integrity and Accountability: Recommendations for Improving the Management, Delivery,
    and Operations of the Federal Student Loan Programs - Advisory Committee on Student
    Financial Assistance, August 1995

    Managerial Cost Accounting Concepts and Standards for the Federal Government -
    Executive Office of the President, Office of Management and Budget, July 1995

    Student Financial Aid - Data Not Fully Utilized to Identify Inappropriately Awarded Loans
    and Grants - GAO, July 1995

    GOP Targets Loan Program Too Expensive, Republicans Say; Democrats, College Officials
    Disagree - St. Louis Post - Dispatch, July 1995

    Federal Family Education Loan Information System - Weak Computer Controls Increase
    Risk of Unauthorized Access to Sensitive Data - GAO, June 1995




March 1999                                     41                       CN S13-70001
    Student Loan Defaults - Department of Education Limitations in Sanctioning Problem
    Schools - GAO, June 1995


                                                                 Appendix E, Page 6 of 7

    The Department Needs to Begin Tracking the Default Rate of Federal Consolidation Loans
    - OIG, SFA Action Memorandum No. 95-03, February 1995

    Coalition for Student Loan Reform Testimony - Advisory Committee on Student Financial
    Assistance, April 1995

    Direct Loan/FFEL Program Cost Update - US Department of Education, February 1995

    Substitute Direct Government Lending for Guaranteed Student Loans: How Budget Rules
    Distorted Economic Decision Making - Congressional Research Service, December 1994

    Cost Issue Paper - Macro International Inc., November 1994

    Description of the Student Loan Cost Model - Macro International Inc., November 1994

    Implementation of the Federal Direct Student Loan Program and Modifications to the
    Federal Family Education Loan Program - Advisory Committee on Student Financial
    Assistance, August 1994

    Letter to Honorable Paul Simon, United States Senator - GAO, July 15, 1993

    Managing Student Loan Default: Schools’Efforts and Borrowers’Experiences - Macro
    International Inc., June 1993

    Direct Government Lending vs. Guarantees for Student Loans: A Comparative Analysis -
    KPMG Peat Marwick, May 1993

    News Release Government Cost Savings Figures Challenged -Ernst & Young Analysis
    Take Aim at Direct Government Lending - USA Group, April 1993

    Direct Government Lending the Bottom Line - Ernst & Young, Spring 1993

    Federal Family Education Loans: Reduced Costs, Direct Lending and National Income -
    Congressional Research Service, February 1993

    Letter to William D. Ford Chairman, Committee on Education And Labor, House of
    Representatives - GAO, February 1993


March 1999                                    42                       CN S13-70001
    Using Activity-Based Costing in Service Industries - Gordon D. Pirrong, National Public
    Accountant, February 1993


                                                                Appendix E, Page 7 of 7

    William D. Ford, Committee on Education And Labor, House of Representatives - KPMG
    Peat Marwick Letter, December 1992

    Letter to William D. Ford Chairman, Committee on Education And Labor, House of
    Representatives - GAO, November 1992

    Final Report For the National Council of Higher Education Loan Programs and Consumer
    Bankers Association - KPMG Peat Marwick, March 1992

    The Real Cost of Direct Lending: A Comprehensive Analysis - Sallie Mae, 1992

    Designing and Implementing a New Cost Management System - John Miller, Journal of
    Cost Management, Winter 1992

    Student Loans Direct Loans Could Save Money And Simplify Program Administration -
    GAO, September 1991




March 1999                                     43                       CN S13-70001
                                  Appendix F, Page 1 of 2


    OSFAP COMMENTS ON THE COST STUDY




March 1999                44           CN S13-70001
March 1999   45   CN S13-70001
                  Appendix F, Page 2 of 2




March 1999   46        CN S13-70001
                                                                    Appendix G, Page 1 of 1

DISTRIBUTION LIST
Greg Woods,
Chief Operating Officer, Office Student Financial Assistant Programs                     1

Marshal Smith,
Acting Deputy Secretary                                                                  1

Chief of Staff, Office of the Deputy Secretary                                           1
Budget Director, Office of Budget Services                                               2
General Counsel, Office of General Counsel                                               1
Director, Office of Public Affairs                                                       1
Chief of Staff, Office of Student Financial Assistant Programs                           2
Director, Accounting and Financial Management Service                                    1

Office of Inspector General
        Inspector General                                                                1
        Deputy Inspector General                                                         1
        Counsel to The Inspector General                                                 1
        Assistant Inspector General for Audit                                            1
        Deputy Assistant Inspector General for Audit                                     1
        Assistant Inspector General for Operations - Eastern Area                        1
        Assistant Inspector General for Operations - Western Area                        1
        Director, Planning and Management Services                                       1
        Director, Student Financial Assistance Programs,
               Advisory and Assistance Services                                          1




March 1999                                      47                        CN S13-70001
